Audit Report

Office of Community Oriented Policing Services 
Safe Schools Initiative Grants to Youth Advocate Programs, Inc., 
Harrisburg, Pennsylvania

Audit Report GR-70-05-014


June 2005
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, completed an audit of the Safe Schools Initiative grants 2002CKWX0298 and 2003CKWX0005 awarded by the DOJ, Office of Community Oriented Policing Services (COPS), to 
Youth Advocate Programs, Inc. (YAP).  The purpose of these grants was to provide families and juvenile justice agencies alternatives to placing youth in public or private institutions for offenses such as disturbing school, truancy, and violent acts.  Between October 2001 and February 2004, YAP was awarded a total of $2,840,250 to provide these youth advocacy services primarily in South Carolina and Florida.

We tested YAPs accounting records to determine if reimbursements claimed for costs under the agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreement.  We also reviewed YAPs records related to program performance.

We determined that YAP did not fully comply with grant requirements in the following areas we tested:  (1) reporting, (2) budgeting, (3) expenditures, and (4) program assessment.  

We determined that YAP did not adequately report to COPS on the financial and program status of these grants.  Specifically, YAP failed to submit 3 of the 11 required Financial Status Reports (FSR), and submitted another 4 FSRs late.  In addition, YAP did not submit any progress reports for either grant.

YAP made unallowable and unsupported expenditures totaling $242,883.  Specifically, we determined that personnel expenditures of $44,487 were unsupported and that computer expenditures of $23,715 and $12,358, respectively, were unallowable and unsupported.  In addition, YAP did not adequately manage and control the budgets for these grants, which resulted in unallowable transfers between budget categories totaling $162,232.

YAP did not sufficiently measure the performance of grant-funded activities that would allow us to determine whether grant objectives were met. 
  
Because the sum of all questioned costs $242,883, includes $36,073 in computer hardware expenditures we questioned in different areas of testing as both unallowable and unsupported, we have adjusted the reported total questioned costs to avoid double counting those expenditures.  In summary, the amount of questioned costs related to both grants is $206,810, or 7 percent, of the total grant awards.1
In addition, we observed that although YAP completed criminal background checks of grant-funded employees who work closely with juveniles, some of these checks were made using only information related to the local (city or county) jurisdiction.  We are concerned that the scope of these criminal background checks may be too narrow to adequately protect the juveniles by screening out YAP employees who may have a history of criminal behavior in other jurisdictions.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.
   



Footnotes

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  Please see Appendix III for a breakout of our dollar-related findings and for a definition of questioned costs.